               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                   Unclaimed Funds

                       Audit Report




                                              April 16, 2012

Report Number FF-AR-12-003
                                                                           April 16, 2012

                                                                      Unclaimed Funds

                                                         Report Number FF-AR-12-003




IMPACT ON:
U.S. Postal Service unclaimed funds          This includes taking advantage of the
held by U.S. state treasuries.               benefits offered through membership
                                             with a publically available online service,
WHY THE OIG DID THE AUDIT:                   using a variety of Postal Service terms
Our objective was to determine whether       when conducting searches, and
the Postal Service efficiently and           establishing working relationships with
effectively collects unclaimed funds held    U.S. state treasury employees.
by U.S. state treasuries. This audit
responded to a request from the Postal       WHAT MANAGEMENT SAID:
Service related to a Hotline complaint.      Management agreed with the
                                             recommendation and stated that a
WHAT THE OIG FOUND:                          membership to a publically available
The Postal Service could more                online service was acquired on March 9,
efficiently and effectively collect          2012, and agreed to expand the number
unclaimed funds. Although the Postal         of terms used in future searches and
Service is identifying some unclaimed        establish working relationships with
funds through limited online searches,       state treasury employees. However,
they are not using all available search      they believe the monetary impact was
methods to collect additional funds that     overstated because the Office of
are due. Opportunities exist to improve      General Counsel would have collected a
identification and collection of unclaimed   significant portion of the $1.5 million; not
funds by registering as a member of an       all identified unclaimed funds may
online searchable database,                  belong to the Postal Service; and
incorporating additional search terms,       ownership may not be able to be
and establishing points of contact with      conclusively established.
state treasuries. Based on our limited
use of additional search methods and         AUDITORS’ COMMENTS:
developing points of contact with state      The OIG considers management’s
treasury personnel, we identified            comments responsive to the
$865,838 of unclaimed funds. Further,        recommendation and corrective actions
we estimate that state treasuries are        should resolve the issues identified in
holding an additional $614,220.              the report. We believe the $1.5 million
                                             represents a conservative estimate of
WHAT THE OIG RECOMMENDED:                    collectable unclaimed funds.
We recommended the Postal Service
use additional search methods to             Link to review the entire report
identify and collect unclaimed funds.
April 16, 2012

MEMORANDUM FOR:            MARY ANNE GIBBONS
                           GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Unclaimed Funds
                           (Report Number FF-AR-12-003)

This report presents the results of our audit of unclaimed funds (Project Number
12BG002FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Timothy F. O’Reilly
    Corporate Audit and Response Management
Unclaimed Funds                                                                                                    FF-AR-12-003



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Identifying and Collecting Unclaimed Funds Need Improvement .................................... 2

Postal Service Approaches Used to Identify Unclaimed Funds ....................................... 2

Improved Methods for Identifying Unclaimed Funds ....................................................... 3

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary and Other Impacts ....................................................................... 9

Appendix C: Management’s Comments ........................................................................ 10
Unclaimed Funds                                                                                       FF-AR-12-003




Introduction

This report presents the results of our audit of unclaimed funds (Project Number
12BG002FF000). We conducted this audit in response to a request from the
U.S.Postal Service related to a Hotline complaint.1 Specifically, the Office of Inspector
General (OIG) received a complaint from the Postal Inspection Service regarding an
investigation of funds owed to various Connecticut post offices listed as unclaimed
property with the state. The Postal Inspection Service was concerned that the Office of
General Counsel (OGC)2 was not pursuing all unclaimed funds reported to state
treasuries and referred this matter to the OIG. Our objective was to determine whether
the Postal Service efficiently and effectively collected unclaimed funds held by U.S.
state treasuries.3 This audit addresses financial risk. See Appendix A for additional
information about this audit.

Unclaimed funds are accounts that financial institutions or companies transfer to state
treasuries when the rightful owner4 of the funds has not initiated a collection action or
cashed checks issued to them. After a predetermined length of time, state laws require
holders5 to remit these funds to the state. States do not take permanent title to the funds
but act as custodians, safeguarding the funds until they are returned to the rightful
owner. The various types of unclaimed funds we identified for the Postal Service
included customer checks for postage that were never cashed, credit balances or
refunds from overpayments for goods and services, and rebates on purchases.

The National Association of Unclaimed Property Administrators (NAUPA)6 is a non-profit
organization affiliated with the National Association of State Treasurers. Members
represent all states, Washington, D.C., and other international governmental entities.
NAUPA provides a forum for continuing discussions regarding interstate cooperation,
education, training, uniform laws, reporting requirements, and increasing public
awareness of the role the states play in protecting and returning property to rightful
owners. According to NAUPA there is approximately $33 billion in 117 million accounts
held in state treasuries nationwide. NAUPA endorses a searchable national online
database of unclaimed funds called MissingMoney.com.




1
  A similar Hotline complaint was submitted on January 20, 2012, to the U.S. Postal Service OIG alleging a general
concern that unclaimed funds were being held by individual states that should be returned to the Postal Service.
2
  In 1998, the Postal Service vested authority for the collection of unclaimed funds with the OGC.
3
  We included Washington, D.C., and Puerto Rico in our universe of U.S state treasuries.
4
  An owner is a person or entity having a legal or equitable claim to the unclaimed funds.
5
  A holder is an organization – bank, insurance company, business, or government agency – that has custody of the
unclaimed funds until it is claimed by the owner or transferred to the state. A holder can be either a customer or a
vendor.
6
  The mission of NAUPA is to promote and support excellence and professionalism among those individuals charged
with the responsibilities of unclaimed property administration and compliance.
                                                             1
Unclaimed Funds                                                                                     FF-AR-12-003




Conclusion

The Postal Service could more efficiently and effectively collect unclaimed funds.
Although the Postal Service is identifying some unclaimed funds through limited online
searches, they are not using all available search methods to collect additional funds
due. Opportunities exist to improve the process for identifying and collecting unclaimed
funds, such as registering as a member of an online searchable database of unclaimed
funds, incorporating additional search terms, and establishing points of contact with
state treasuries. Based on our limited use of additional search methods and developing
points of contact with state treasury personnel, we identified $865,838 of unclaimed
funds. Further, we estimate that state treasuries are holding an additional $614,220.7

Identifying and Collecting Unclaimed Funds Needs Improvement

The Postal Service did not efficiently and effectively identify all unclaimed funds. This
occurred because the Postal Service reduced the number of resources8 it uses to
identify unclaimed funds without improving the methods it uses to identify those funds.
Consequently, we identified $865,838 of funds currently available for the Postal Service
to collect and estimate that as much as $614,220 is available at other state treasuries
that did not disclose dollar amounts. See Appendix B for additional information.

Postal Service Approaches Used to Identify Unclaimed Funds

From fiscal year (FY) 1998 through FY 2008, the OGC used a group of three paralegals
to send letters to individual state treasuries requesting unclaimed funds for the Postal
Service. This process resulted in sporadic responses and no direct contact with the
individual state treasuries. These efforts resulted in the collection of $203,189 from
14 states in FY 2007 and $335,204 from 16 states in FY 2008.

Since FY 2009, the OGC has had only one employee performing this function as a
secondary duty. During this time, the OGC enlisted a contractor to assist with the
collection of unclaimed funds. As a result of their combined efforts, the OGC collected
$1.1 million from 36 states in FY 2009.9 Using the online service,10 the OGC collected
$851,315 from 36 states in FY 2010 and $569,968 from 31 states in FY 2011.




7
  There were 1,022 unclaimed listings with dollar amounts totaling $865,837.84, averaging $847.20 per listing. We
obtained 725 unclaimed funds that did not disclose dollar amounts. We estimated $614,219.60 by multiplying the
725 unclaimed funds by the $847.20 average.
8
  Resources were reduced because the process to collect unclaimed funds transitioned from a manual process to an
online web-based process.
9
  The contractor is still employed by the Postal Service to collect unclaimed funds from local governments at a
commission of 14 percent. For FYs 2010 and 2011, the contractor identified $138,353 and $78,183, respectively.
10
   MissingMoney.com.

                                                        2
Unclaimed Funds                                                                                    FF-AR-12-003




Improved Methods for Identifying Unclaimed Funds

Currently, the OGC employee does not take full advantage of the tools available with
the online service and has not established working relationships with state treasury
employees. Specifically, we found the Postal Service could have improved upon
identifying and collecting these funds by:

    Becoming a member with the online service and creating a search profile on behalf
     of the Postal Service to receive automatic notifications for new postings.11 Once
     enrolled as a member, you can add postal terms to your search profile for automatic
     notices, which are sent three times a year. These automatic notices would inform the
     Postal Service that state treasuries have posted new unclaimed funds that meet the
     search criteria in the user’s profile. Also, membership with the online service offers
     pre-populated claim forms to expedite the collection process.

    Using a variety of different Postal Service terms when conducting searches. We
     used an expanded list of 90 terms and included city and town names, postal
     terminology, and acronyms such as “VMF,”12 “GMF,”13 “BMEU,”14 and “CMRS.”15
     The OGC used basic search terms such as “Postmaster,” “Post Master,” “US Post,”
     “U S Post”, “United States Post,” “USPS,” “U S P S,” “USPO,” and “Post Office”.

    Establishing a network with state treasury employees. During our audit, we
     established personal contacts with state treasury employees in four states.16 These
     contacts were invaluable in locating unclaimed funds and provided needed
     information that assisted our searches at other locations.

Using these techniques, we conducted our own searches and found that additional
unclaimed funds were available to the Postal Service for collection. Chart 1 illustrates
that applying additional search methods along with establishing points of contact with
state treasuries would improve the Postal Service’s collection process success. We
identified about $1.5 million in Q1, FY 2012 ($865,838 of funds with dollar amounts plus
an estimate of $614,220 for funds with undisclosed dollar amounts). As a result of our
audit, state treasuries sent us claim forms which we forwarded to the OGC for their
action. The OGC submitted these forms to the appropriate state treasuries for
payment. 17




11
   There is no fee for becoming a member.
12
   Vehicle Maintenance Facility.
13
   General Mail Facility.
14
   Business Mail Entry Unit.
15
   Computerized Meter Resetting System.
16
   Connecticut, Massachusetts, New York, and Texas.
17
   The OGG took corrective action by expanding their membership profile to include CMRS as an additional search
term.

                                                        3
Unclaimed Funds                                                                                      FF-AR-12-003




       Chart 1 – Postal Service Claims Versus OIG-Identified Unclaimed Funds




Source: Postal Service Accounting Services Center, Eagan MN and the OIG.

As shown in Chart 2, for six states we identified $578,87618 more than the $239,877 that
the Postal Service collected. Included in the funds we found were 519 listings19 posted
prior to 2007 belonging to the Postal Service and totaling $398,948 that were still held
by state treasuries. These funds could have been detected and collected during the
OGC’s searches. For example, the New York State Treasury has held two of the
listings, valued at $65,000 and $50,000, since 2006. Additionally, the Massachusetts
State Treasury has held two listings, valued at $26,000 and $14,000, since 2002.




18
   The Postal Service claimed $239,876.65 for California, Connecticut, Massachusetts, Nevada, New York, and
Texas in calendar year (CY) 2011; however, the OIG recognized an additional $578,876.18 that was still held with
those states for collection in CY 2011.
19
   A listing is an individual property claim.

                                                         4
Unclaimed Funds                                                             FF-AR-12-003




  Chart 2 – Calendar Year 2011 Postal Service Claims and OIG-Identified Claims




Source: Postal Service Accounting Services Center, Eagan, MN and the OIG.

Recommendation

We recommend the general counsel and executive vice president:

1. Direct the deputy general counsel to utilize additional search methods to identify
   and collect unclaimed funds. This includes taking advantage of the benefits offered
   through membership with a publically available online service, using a variety of
   different Postal Service terms when conducting searches, and establishing working
   relationships with state treasury employees.

Management’s Comments

Management agreed with the recommendation; however, they believe the monetary
impact is overstated because the OGC would have collected a significant portion of the
$1.5 million during the normal course of business. Further, the expansive list of terms
the OIG used may increase the probability that not all identified claims belong to the
Postal Service, and ownership may not be able to be conclusively established.
Additionally, management stated they acquired a membership to a publically available
online service on March 9, 2012; and, by June 1, 2012, agreed to expand the number of
terms used in future searches and establish working relationships with state treasury
employees. See Appendix C for management’s comments in their entirety.


                                                      5
Unclaimed Funds                                                                FF-AR-12-003




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our findings and
recommendation and corrective actions should resolve the issues identified in the
report. We agree that the OGC may have identified a significant portion of the
$1.5 million; however, nearly $600,000 of this amount remained unidentified and
uncollected by the OGC from 1976 through 2011. Regarding the collectability of the
$1.5 million, we believe this represents a conservative estimate of collectable unclaimed
funds. Using an expansive list of terms, our original data identified over 2,300 unclaimed
funds valued at approximately $2 million. To establish ownership, we relied on
confirmations from state treasuries and utilized prior successful Postal Service claims
using similar search terms. As a result, we eliminated over 600 unclaimed funds and
conservatively identified 1,747 valued at $1.5 million. Further, we identified and
forwarded supporting documentation to the OGC from five state treasuries for the
collection of $754,646 in unclaimed Postal Service funds.




                                            6
Unclaimed Funds                                                                 FF-AR-12-003




                          Appendix A: Additional Information

Background

Unclaimed funds are monies held by state treasuries that owners have not claimed.
These funds originate from financial institutions, public utilities, insurance companies,
banks, universities, businesses, and public entities and are due to the rightful owners,
who are not collecting these funds.

There is a publically available online service designed to search the centralized national
online database of unclaimed funds held by state governments for businesses and
individuals. Thirty-nine states, Washington, D.C., and Puerto Rico, currently share their
unclaimed funds data on this website. Thirteen states do not participate and require
direct correspondence by telephone, email or First-Class Mail®. Obstacles to collecting
unclaimed Postal Service funds include individual state rules, the reliability of state
treasury data, multiple variations for the name of the Postal Service, and the claim
process itself. Many states have a policy of excluding federal funds from its public
search databases, requiring a direct request with proof of ownership for this information.

The Postal Service currently relies on searches of the online website to find unclaimed
funds and the cooperation of state treasury personnel to process their claims. Each
state has different regulations and requirements for distributing unclaimed funds, often
requesting additional documentation in support of Postal Service claims. Searching
state treasury databases is limited to using a first and last name or company name.
Since new unclaimed data is added weekly, identifying unclaimed funds for the Postal
Service requires a continuous search with the online service using multiple name
variations and constant contact with state treasury personnel.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service efficiently and effectively
collects unclaimed funds held by U.S. state treasuries. To accomplish this objective, we
reviewed guidelines the Postal Service uses and documentation pertaining to prior
unclaimed fund collections.

We interviewed Postal Service management and personnel. We conducted searches of
a publically available online service, as well as individual state treasury websites, and
interviewed state treasury personnel to evaluate the Postal Service’s unclaimed fund
collection process. In addition, we inquired with the Postal Service OGC and researched
applicable U.S. state laws concerning unclaimed property. Because of the proximity to
OIG offices, we visited the Massachusetts and New York state treasury offices to
establish points of contact to determine whether unclaimed funds belonging to the
Postal Service existed. In addition, we reviewed unclaimed funds data from the online
state treasury databases of all 50 U.S. states, Washington D.C., and Puerto Rico. We
also contacted state treasury personnel regarding their unclaimed funds processes and


                                             7
Unclaimed Funds                                                                FF-AR-12-003



the dollar amounts of unclaimed funds owned by the Postal Service. For state
databases that did not disclose unclaimed fund amounts, we estimated these amounts
nationwide.

We conducted this performance audit from October 2011 through April 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 8, 2012, and included their
comments where appropriate.

We relied on databases located on individual state treasury websites. Since these
databases are external to the Postal Service, we were unable to test their reliability.
However, we determined that the data was sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews issued during the last 5 years
related to the objectives of this audit.




                                            8
Unclaimed Funds                                                                                     FF-AR-12-003




                            Appendix B: Monetary and Other Impacts

                                             Monetary Impacts

                Finding                          Impact Category                         Amount
           Identifying and
           Collecting                        Funds put to better use20                    $865,838
           Unclaimed Funds
           Need
           Improvement

                                                Other Impacts

                Finding                          Impact Category                         Amount
           Identifying and
           Collecting                     Potential additional revenue21                  $614,220
           Unclaimed Funds
           Need
           Improvement

There were 1,022 unclaimed listings with dollar amounts totaling $865,837.84. This
yields an average of $847.20. We obtained 725 unclaimed funds that did not disclose
dollar amounts. We estimated $614,219.60 by multiplying the 725 unclaimed funds by
the $847.20 average.




20
  Funds that could be used more efficiently by implementing recommended actions.
21
  Revenue the Postal Service could potentially generate for goods delivered or services rendered based on
suggested improvements.

                                                        9
Unclaimed Funds                                       FF-AR-12-003



                  Appendix C: Management’s Comments




                                 10
Unclaimed Funds        FF-AR-12-003




                  11
